Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   GAPS IN OVERSIGHT OF 

  CONFLICTS OF INTEREST IN 

  MEDICARE PRESCRIPTION

     DRUG DECISIONS





                    Daniel R. Levinson

                     Inspector General


                      March 2013

                     OEI-05-10-00450 

EXECUTIVE SUMMARY: GAPS IN OVERSIGHT OF CONFLICTS OF
INTEREST IN MEDICARE PRESCRIPTION DRUG DECISIONS
OEI-05-10-00450

WHY WE DID THIS STUDY
Federal law and regulations require Medicare Part D Pharmacy and Therapeutics (P&T)
committees to make prescription drug coverage decisions based on scientific evidence
and standards of practice. Formulary decisions affect beneficiaries’ access to specific
prescription drugs and the cost of drugs to beneficiaries and the Federal Government. To
comply with the law, sponsors’ P&T committees must prevent conflicts of interest from
influencing members to give preference to certain drugs. In addition, sponsors’
P&T committees must comply with Federal law and regulations that specifically address
conflicts on P&T committees by requiring that at least one physician and at least one
pharmacist on each committee be independent and free of conflict relative to the sponsor
and pharmaceutical manufacturers.

HOW WE DID THIS STUDY
We conducted a document review and analyzed survey responses from P&T committees
to determine the extent to which they defined, determined, and managed conflicts of
interest. We also conducted structured interviews with staff at the Centers for Medicare
& Medicaid Services (CMS) to determine the extent to which CMS oversees Medicare
Part D P&T committees’ compliance with the requirement that at least two members be
independent and free of conflict and whether CMS oversees members’ recusals.

WHAT WE FOUND
Sponsors’ P&T committees have limited oversight of committee members’ conflicts of
interest, compromising sponsors’ ability to prevent financial interests from influencing
coverage decisions. Most sponsors’ P&T committees have limited definitions of
conflicts of interest, which could prevent them from identifying conflicts. Also, many
sponsors’ P&T committees allow their members to determine and manage their own
conflicts. Additionally, CMS does not adequately oversee sponsors’ compliance with the
requirement that at least two members on each P&T committee be independent and free
of conflict relative to the sponsor and pharmaceutical manufacturers.

WHAT WE RECOMMEND
We recommend that CMS: (1) define pharmacy benefit managers as entities that could
benefit from coverage decisions, (2) direct sponsors to ensure that safeguards are in place
to mitigate improprieties related to employment by the entity managing the
P&T committee, (3) direct sponsors to ensure that an objective process is used to
determine conflicts, (4) direct sponsors to ensure that an objective process is used to
manage conflicts, and (5) oversee sponsors’ compliance with the requirement that at least
two committee members be independent and free of conflict. CMS did not concur with
our first and second recommendations, concurred with part of our third and fourth
recommendations, and concurred with our fifth recommendation.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ..............................................................................................10
Findings......................................................................................................13
           Most sponsors’ P&T committees had limited definitions of
           conflicts of interest, which could prevent them from identifying
           conflicts ..........................................................................................13
           Many sponsors’ P&T committees allowed members to determine
           and manage their own conflicts of interest ....................................15
           CMS does not adequately oversee sponsors’ P&T committee
           compliance with Federal conflict-of-interest requirements ...........16
Conclusion and Recommendations ............................................................18
           Agency Comments and Office of Inspector General Response.....22
Appendixes ................................................................................................25
           A: Potential Sponsor and Pharmacy and Therapeutics Committee
           Relationships ..................................................................................25
           B: Pharmacy and Therapeutics Committee Member Disclosure
           Form ...............................................................................................26
           C: Agency Comments ...................................................................27
Acknowledgments......................................................................................32
                    OBJECTIVES
                    1. To assess sponsors’ Pharmacy and Therapeutics (P&T) committees’
                       conflict-of interest-definitions.
                    2. To determine whether sponsors’ P&T committees established
                       objective processes to determine and manage committee members’
                       conflicts of interest.
                    3. To determine whether the Centers for Medicare & Medicaid Services
                       (CMS) oversee sponsors’ P&T committee compliance with conflict-
                       of-interest requirements.

                    BACKGROUND
                    Federal law and regulations require Medicare Part D P&T committees to
                    make prescription drug coverage decisions based on scientific evidence
                    and standards of practice. Coverage decisions affect beneficiaries’ access
                    to specific prescription drugs and the cost of drugs to beneficiaries and the
                    Federal Government. To ensure that coverage decisions are appropriate,
                    sponsors’ P&T committees must prevent members from giving preference
                    to certain drugs based on their personal financial interests. In addition,
                    sponsors’ P&T committees must comply with Federal law and regulations
                    that specifically address conflicts on P&T committees by requiring that at
                    least one physician and at least one pharmacist on each committee be
                    independent and free of conflict relative to the sponsor and pharmaceutical
                    manufacturers.
                    Research has shown that financial interests between the pharmaceutical
                    industry and health care professionals are common. There is evidence of
                    pervasive conflicts of interest among pharmaceutical manufacturers and
                    health care practitioners, researchers, and educators. 1, 2 For example, a
                    national survey in 2009 found that 84 percent of practicing physicians
                    reported some type of financial interest in the pharmaceutical industry. 3
                    Evidence suggests that financial relationships may improperly influence
                    medical decisionmaking. For example, physicians who accepted money


                    1
                      Bernard Lo and Marilyn J. Fields (eds.), Conflict of Interest in Medical Research,
                    Education, and Practice, Institute of Medicine of the National Academies, 2009.
                    2
                      “Medical Research and Education: Higher Learning or Higher Earning?”: Hearing
                    Before the U.S. Senate Special Committee on Aging, 111th Congress 2009, Statement of
                    Eric G. Campbell, Associate Professor and Director of Research, Institute for Health
                    Policy, Massachusetts General Hospital and Harvard Medical School.
                    3
                      Eric G. Campbell et al., “Physician Professionalism and Changes in Physician-Industry
                    Relationships From 2004–2009,” Archives of Internal Medicine, vol. 170, no. 20,
                    November 8, 2010, pp. 1820–1826.

Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)      1
                    from pharmaceutical manufacturers were much more likely than others to
                    have requested that drugs manufactured by those companies be added to
                    hospital formularies. 4
                    Medicare Part D
                    Medicare’s prescription drug program, known as Part D, provides optional
                    drug benefits to Medicare beneficiaries. 5 CMS contracts with private
                    insurance companies, called sponsors, to provide Part D prescription drug
                    coverage to beneficiaries who choose to enroll. Sponsors offer drug
                    coverage to beneficiaries through Part D prescription drug plans. As of
                    March 2012, approximately 31 million beneficiaries were enrolled in
                    Part D plans. 6
                    Part D Formularies
                    Sponsors can use a variety of methods to control the cost of providing
                    prescription drug coverage through the Part D program. Sponsors can
                    establish formularies, or lists of covered drugs, to give preference to
                    certain drugs over others that treat the same condition. Formularies are
                    generally organized into tiers, which have different copayments to drive
                    utilization toward less-expensive drugs. Drugs in lower tiers are typically
                    the least expensive and have the lowest beneficiary copayment. Drugs in
                    ascending tiers are, in general, more expensive and have increasing
                    beneficiary copayments. For example, a low-cost generic drug on Tier 1
                    may require a $5 copayment, a preferred brand-name drug on Tier 2 may
                    require a $40 copayment, a nonpreferred brand-name drug on Tier 3 may
                    require a $90 copayment, and specialty drugs on Tier 4 may require
                    coinsurance for 30 percent of the drugs’ cost.
                    Sponsors can employ utilization management practices, such as prior
                    authorization, quantity limits, and generic substitution, to restrict the use
                    of certain drugs on their formularies. For example, sponsors may require a
                    beneficiary to try a less-expensive alternative drug before progressing to a
                    costlier drug. Sponsors also can negotiate price concessions with
                    pharmaceutical manufacturers to reduce the cost of prescription drugs for
                    sponsors and beneficiaries.
                    Sponsors may contract with one or more pharmacy benefit managers
                    (PBM) to help them manage their formularies and other aspects of their

                    4
                      Mary-Margaret Chren and C. Seth Landefeld, “Physicians’ Behavior and Their
                    Interactions With Drug Companies,” Journal of the American Medical Association
                    (JAMA), vol. 271, no. 9, March 1994, pp. 684–689.
                    5
                      The Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
                    P.L. 108-173 § 101; Social Security Act, § 1860D-1; U.S.C. § 1395w-101.
                    6
                      CMS, Medicare Advantage, Cost, PACE, Demo, and Prescription Drug Plan Contract
                    Report - Monthly Summary Report (Data as of March 2012). Accessed at
                    http://www.cms.gov on April 10, 2012.

Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   2
                    prescription drug benefit. PBMs offer a wide variety of services including
                    managing formularies, processing prescription drug claims, contracting
                    with pharmacies, and negotiating price concessions with pharmaceutical
                    manufacturers for particular drugs. 7 PBMs can be compensated for these
                    services in a number of ways, one of which is retaining a percentage of
                    price concessions that they negotiate on behalf of sponsors. 8
                    Sponsors are responsible for complying with Federal requirements and all
                    terms and conditions of their Part D contracts with CMS, even if the
                    sponsor has delegated responsibilities for managing the formulary to a
                    PBM. 9, 10 Sponsors must have contracts with their Part D contractors,
                    including PBMs, to ensure that the contractors comply with all applicable
                    Federal laws and regulations and with CMS instructions. 11
                    P&T Committees
                    Sponsors that use formularies for their Part D plans are required by
                    Federal law to maintain P&T committees. 12 Sponsors either manage their
                    own formularies and, therefore, maintain the P&T committee; or contract
                    out these functions to a PBM. Maintaining P&T committees could
                    involve, among other functions, selecting members, appointing an
                    individual to chair the committee, and creating the policies and
                    administrative procedures that govern the committee.
                    P&T committees’ role is to make clinical decisions about which drugs are
                    on Part D plan formularies; many of these decisions are binding on the
                    Part D plan. Per Federal regulations, sponsors are required to follow the
                    decisions that P&T committees make regarding which drugs to include on
                    the formulary. 13, 14 However, sponsors can decide which formulary tier to
                    place these drugs on, based on the recommendation of their
                    P&T committees. 15 Sponsors also must adhere to the P&T committees’
                    decisions regarding prescription drug utilization management practices. 16



                    7
                      CMS, Medicare Prescription Drug Benefit Manual, Pub. No. 100-18, ch. 9, § 10.1.
                    8
                      Office of Inspector General (OIG), Concerns With Rebates in the Medicare Part D
                    Program, OEI-02-08-00050, March 2011.
                    9
                      42 CFR § 423.505(i).
                    10
                       CMS, Medicare Prescription Drug Benefit Manual, Pub. No. 100-18, ch. 6, § 30.1.3.
                    11
                       42 CFR § 423.505(i)(4)(iv).
                    12
                       Section 1860D-4(b)(3)(A) of the Act; some plan types, such as the Program of
                    All-Inclusive Care for the Elderly (PACE) plans, do not routinely use formularies to
                    manage prescription drug utilization and therefore do not have P&T committees.
                    13
                       42 CFR 423.120(b)(1).
                    14
                       CMS, Medicare Prescription Drug Benefit Manual, Pub. No. 100-18, ch. 6, § 30.1.5.
                    15
                       42 CFR § 423.120(b)(1).
                    16
                       42 CFR § 423.120(b)(1)(ix).

Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)       3
                    When determining whether to include a drug on a formulary, Federal law
                    requires P&T committees to base clinical decisions on the strength of
                    scientific evidence and standards of practice. 17 For example, when voting
                    to include a drug, P&T committees must consider whether the addition of
                    that drug has therapeutic advantages in terms of safety and efficacy. 18
                    Cost considerations should be secondary to the determination of clinical
                    efficacy and appropriateness of drugs. 19
                    P&T committees typically make formulary decisions for multiple Part D
                    plans. In general, we found that one P&T committee makes decisions for
                    all the Part D plans managed by a sponsor or a PBM. See Appendix A for
                    an illustration of how one P&T committee can provide services to multiple
                    Part D sponsors and plans.
                    P&T committees vary in size. Our analysis showed that in 2010,
                    P&T committees ranged from 3 to 62 members, with an average of 16.
                    Sponsors and PBMs may compensate their P&T committee members for
                    serving on the committee and for standard expenses incurred while
                    attending committee meetings. P&T committee members who were not
                    employees of the sponsor or the PBM managing the P&T committee were
                    paid, on average, $2,404 in 2010 for serving on the committee.
                    P&T Committee Conflicts of Interest
                    Federal law, regulations, and CMS guidance provide limited direction on
                    how P&T committees should handle conflicts of interest. Federal law and
                    regulations restrict some P&T committee members from having conflicts
                    of interest with certain entities. They do not explicitly stipulate what
                    constitutes a conflict. Beyond that, CMS guidance provides some general
                    expectations for the disclosure of conflicts and recusal of P&T committee
                    members with conflicts.
                    As the entities that contract with CMS to provide prescription drug
                    coverage to Medicare beneficiaries, sponsors are responsible for ensuring
                    that all Federal laws and regulations pertaining to P&T committee
                    members’ conflicts are followed. Although sponsors are ultimately
                    responsible, entities that maintain the P&T committees establish the
                    policies and procedures governing the definition, disclosure,
                    determination, and management of P&T committee conflicts. These
                    policies and procedures are unique to each P&T committee, not to each
                    sponsor.


                    17
                       42 U.S.C. 1395w-104(b)(3)(B).
                    18
                       Ibid.
                    19
                       CMS, Medicare Prescription Drug Benefit Manual, Pub. No. 100-18, ch. 9, § 50.2.1.2.

Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)     4
                    Definition. Federal law and regulations address conflicts of interest with
                    respect to P&T committees by defining members of the committees who
                    must be free of conflict and the entities with which they must be free of
                    conflict. The law stipulates that at least one physician and at least one
                    pharmacist on each P&T committee be free of conflict relative to the
                    sponsor and Part D plan. 20 Therefore, a minimum of two members on
                    each P&T committee must be independent from the sponsor and Part D
                    plan. However, CMS explained in the preamble to the 2005 Final Rule
                    that this requirement should be viewed “as a floor which we encourage
                    them to exceed.” 21 Regulations expand the law by including
                    pharmaceutical manufacturers as entities from which at least two members
                    must be independent. 22, 23
                    Federal law and regulations and CMS guidance do not explicitly define
                    what constitutes a conflict with sponsors, Part D plans, and pharmaceutical
                    manufacturers. However, CMS provides limited direction on what may be
                    considered a conflict with pharmaceutical manufacturers. In the Medicare
                    Prescription Drug Benefit Manual, CMS states that certain relationships
                    with pharmaceutical manufacturers may still be considered independent
                    and free of conflict. Specifically, P&T committee members who have
                    nonemployee relationships with pharmaceutical manufacturers that do not
                    constitute “significant sources of income” may still be considered
                    independent. Such nonemployee relationships with pharmaceutical
                    manufacturers could be advisory or involve consulting or research. 24
                    The law, regulations, and guidance do not address P&T committee
                    members’ financial interests with any other entities involved in
                    implementing the Part D program, such as PBMs. While CMS suggests in
                    the preamble to the Final Rule that a conflict of interest is “any direct or
                    indirect financial interest in any entity … that would benefit from
                    decisions regarding plan formularies,” the regulations specify only
                    sponsors and pharmaceutical manufacturers; they do not specifically list
                    PBMs. 25, 26
                    Disclosure and Determination. CMS recommends that P&T committee
                    members disclose financial interests by signing and continually updating

                    20
                       42 U.S.C. 1395w-104(b)(3)(A)(ii).
                    21
                       70 Fed. Reg. 4255, 4256 (Jan. 28, 2005).
                    22
                       42 CFR § 423.120(b)(1)(ii).
                    23
                       In the subsequent Health Plan Management System Basic Contract Management
                    Technical User’s Manual, CMS defines sponsor to include both the sponsor and the
                    Part D plan.
                    24
                       CMS, Medicare Prescription Drug Benefit Manual, Pub. No. 100-18, ch. 6, § 30.1.1.
                    25
                       70 Fed. Reg. 4255, 4256 (Jan. 28, 2005).
                    26
                       42 CFR § 423.120(b)(1)(ii).

Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)       5
                    conflict-of-interest statements to reveal financial or other relationships
                    with entities affected by drug coverage decisions. 27, 28 CMS explains in the
                    preamble to the Final Rule that it expects P&T committee members to sign
                    conflict-of-interest statements that are consistent with industry standards
                    for conflict-of-interest disclosures. 29 However, CMS does not specify
                    which industry standards to follow.
                    CMS does not provide any guidance on how disclosed financial interests
                    are to be reviewed to determine whether they constitute conflicts of
                    interest.
                    Recusal. While at least two members on each P&T committee must be
                    free of conflict with sponsors and pharmaceutical manufacturers, the
                    remaining members can have conflicts of interest. In the preamble to the
                    Final Rule, CMS explains that it expects procedures to be established that
                    are consistent with standard industry practice for recusing P&T committee
                    members from discussions or votes if a particular drug presents a conflict
                    of interest. 30 However, CMS does not specify which industry standards to
                    follow. CMS does explain that implementing recusal procedures is
                    necessary to ensure that formulary decisions are based on scientific
                    evidence and standards of practice. 31
                    CMS Oversight of P&T Committee Conflicts of Interest
                    CMS requires sponsors to attest on their initial Part D applications that the
                    membership of their P&T committees will include at least one practicing
                    physician and at least one practicing pharmacist, both of whom are free of
                    conflict with the sponsor and pharmaceutical manufacturers. 32
                    Additionally, sponsors must report membership information for their
                    P&T committees on their initial Part D applications or ensure that their
                    PBM reports this information on their behalf. 33, 34 This information
                    includes the names of all P&T committee members and the start and end
                    dates of their service on the committee. It also includes whether each
                    committee member is free of any conflict of interest with the organization



                    27
                       CMS, Medicare Prescription Drug Benefit Manual, Pub. No. 100-18, ch. 6, § 30.1.2.
                    28
                       CMS, Medicare Prescription Drug Benefit Manual, Pub. No. 100-18, ch. 9, § 50.2.1.2.
                    29
                       70 Fed. Reg. 4255, 4257 (Jan. 28, 2005).
                    30
                       70 Fed. Reg. 4255, 4256 (Jan. 28, 2005).
                    31
                       Ibid.
                    32
                       CMS, Medicare Prescription Drug Benefit: Solicitation for Applications for New
                    Prescription Drug Plans (PDP) Sponsors, 2011 Contract Year.
                    33
                       Ibid.
                    34
                       CMS, Health Plan Management System Basic Contract Management Technical User’s
                    Manual, Plan Version 1.0, January 5, 2010.

Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)     6
                    or pharmaceutical manufacturer. 35, 36 (See Appendix B for an example of
                    the membership information reported.)
                    To report conflict-of-interest information to CMS, sponsors or their
                    contracted PBMs obtain information about P&T committee members’
                    financial interests using conflict-of-interest statements. These statements
                    are not required to be submitted to CMS.
                    CMS also requires sponsors to report whether they maintain the
                    P&T committee or contract with a PBM to do so. If sponsors contract
                    with a PBM, they also must report the name of the contracted PBM and
                    whether the P&T committee operates under a confidentiality
                    agreement. 37, 38
                    When sponsors and PBMs enter into confidentiality agreements, PBMs
                    report their P&T committee members’ names, service dates, and
                    conflict-of-interest information directly to CMS. 39 They do not disclose
                    this information to the sponsors. 40
                    CMS requires sponsors or their contracted PBMs to report updates relating
                    to their P&T committees at least annually. 41 Updates can include changes
                    to P&T committee membership, confidentiality agreement status, or the
                    entity that maintains the P&T committee. If a new P&T committee
                    member is added, all of the member’s information that would have been
                    initially reported is included in this update.




                    35
                       Federal regulation states that at least one practicing physician and at least one
                    practicing pharmacist must be independent and free of conflict relative to the sponsor and
                    pharmaceutical manufacturers. However, the Member Disclosure Form in the Part D
                    application requests sponsors to provide information on whether these P&T committee
                    members are free of conflict relative to the “organization” and pharmaceutical
                    manufacturers. The CMS Health Plan Management System Basic Contract Management
                    Technical User’s Manual indicates that “organization” refers to the sponsor.
                    36
                       CMS, Medicare Prescription Drug Benefit: Solicitation for Applications for New
                    Prescription Drug Plans (PDP) Sponsors, 2011 Contract Year.
                    37
                       CMS, Medicare Part D Reporting Requirements, January 1, 2010. Accessed at
                    http://www.cms.gov on August 16, 2010.
                    38
                       CMS, Medicare Part D Reporting Requirements: Technical Specifications Document
                    Contract Year 2010, January 1, 2010. Accessed at http://www.cms.gov on September 10,
                    2010.
                    39
                       CMS, Medicare Prescription Drug Benefit: Solicitation for Applications for New
                    Prescription Drug Plans (PDP) Sponsors, 2011 Contract Year.
                    40
                       CMS, Medicare Prescription Drug Benefit Manual, Pub. No. 100-18, ch. 6, § 30.1.3.
                    41
                       CMS, Medicare Part D Reporting Requirements, January 1, 2010. Accessed at
                    http://www.cms.gov on August 16, 2010.

Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)        7
                    CMS states that it may apply new or adjust existing quality assurance
                    checks on the P&T committee information reported by sponsors. 42 These
                    checks are used by CMS to identify outliers or data that are potentially
                    erroneous. 43
                    CMS Oversight of Formularies
                    CMS reviews and approves the formularies designed by P&T committees.
                    CMS’s review focuses on ensuring that formularies provide access to a
                    range of Part D drug choices. 44 CMS checks the formularies to make sure
                    they meet accepted pharmaceutical standards and include drugs from
                    different therapeutic categories. 45 CMS generally does not review
                    formularies for individual drugs. However, it does review individual
                    drugs identified to treat some specific diseases and drugs in classes of
                    clinical concern. 46
                    CMS’s formulary review also is designed to ensure that it does not
                    substantially discourage any group of beneficiaries from enrolling in the
                    Part D plan. 47 For example, if formularies place certain types of drugs
                    only on tiers that require expensive beneficiary copayments, some
                    beneficiaries might be discouraged from enrolling in the Part D plan.
                    CMS generally reviews the formulary to make sure that low-cost drugs are
                    available on low formulary tiers, which typically have the lowest
                    copayments. CMS also checks that only high-cost drugs (over $600) are
                    placed on the specialty tier, which typically has the highest copayments.
                    CMS also conducts targeted audits of sponsors to verify that approved
                    formularies are being administered appropriately and that drug coverage
                    decisions are based on scientific evidence. 48 During targeted audits, CMS
                    reviews the development of a Part D plan’s formulary by reviewing
                    documents that would show the P&T committee’s decisions regarding
                    which drugs to cover and the scientific evidence used to support those


                    42
                       CMS, Medicare Part D Reporting Requirements: Technical Specifications Document
                    Contract Year 2010, January 1, 2010. Accessed at http://www.cms.gov on September 10,
                    2010.
                    43
                       Ibid.
                    44
                       CMS, Medicare Prescription Drug Benefit Manual, Pub. No. 100-18, ch. 6, § 30.2.
                    45
                       Ibid.
                    46
                       CMS is required by the Patient Protection and Affordable Care Act to identify
                    categories and classes of drugs that are of clinical concern. Until CMS determines these
                    categories and classes, all, or substantially all, drugs from the following six protected
                    classes as specified by the Medicare Improvements for Patients and Providers Act must
                    be included on Part D formularies: immunosuppressant for the treatment of transplant
                    rejection, antidepressant, antipsychotic, anticonvulsant, antiretroviral, and antineoplastic.
                    47
                       CMS, Medicare Prescription Drug Benefit Manual, Pub. No. 100-18, ch. 6, § 30.2.
                    48
                       CMS, Medicare Part C & Part D Universal Audit Guide, Version 1, Appendix H.3:
                    Audit Methodology Formulary Administration, October 28, 2009.

Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)           8
                    decisions. 49 CMS also may conduct an interview with the sponsor, asking
                    questions related to whether the P&T committee appropriately developed
                    the formulary. 50 CMS also may review P&T committee meeting minutes
                    to determine whether the P&T committee reviewed utilization
                    management practices for clinical appropriateness. 51 In 2010, CMS did
                    not review P&T committee conflicts of interest as part of its targeted
                    audits. However, for 2012, CMS added an optional conflict-of-interest
                    review to its audit protocols. If CMS’s targeted audit findings relate to the
                    role of the P&T committee, then CMS reviews a list of P&T committee
                    members to determine whether at least one practicing physician and at
                    least one practicing pharmacist are independent and free of conflict with
                    the sponsor and pharmaceutical manufacturers.
                    Related Work
                    OIG has issued numerous reports examining the oversight of conflicts of
                    interest in the Department of Health and Human Services (HHS) 52 and
                    several HHS agencies, including the National Institutes of Health, 53, 54 the
                    Centers for Disease Control and Prevention (CDC), 55 and the Food and
                    Drug Administration. 56 We made recommendations to all of these
                    agencies to strengthen their oversight of conflicts of interest.




                    49
                     CMS, Medicare Part C & Part D Universal Audit Guide, Version 1, Appendix H.3:
                    Audit Methodology Formulary Administration, October 28, 2009.
                    50
                       CMS, Medicare Part C & Part D Universal Audit Guide, Version 1, Appendix L.3:
                    Interview Guide, Part D Formulary Administration, October 28, 2009.
                    51
                       CMS, Medicare Part C & Part D Universal Audit Guide, Version 1, Appendix H.3:
                    Audit Methodology Formulary Administration, October 28, 2009.
                    52
                       OIG, Conflict-of-Interest Waivers Granted to HHS Employees in 2009, OEI-04-10-
                    0010, August 2011.
                    53
                       OIG, National Institutes of Health: Conflicts of Interest in Extramural Research,
                    OEI-03-06-00460, January 2008.
                    54
                       OIG, How Grantees Manage Financial Conflicts of Interest in Research Funded by the
                    National Institutes of Health, OEI-03-07-00700, November 2009.
                    55
                       OIG, CDC’s Ethics Program for Special Government Employees on Federal Advisory
                    Committees, OEI-04-07-00260, December 2009.
                    56
                       OIG, The Food and Drug Administration’s Oversight of Clinical Investigators’
                    Financial Information, OEI-05-07-00730, January 2009.

Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)    9
                    METHODOLOGY
                    Scope
                    This study focuses on sponsor and CMS oversight in 2010 intended to
                    ensure that formulary decisions are not biased by conflicts of interest.
                    With respect to sponsor oversight, this evaluation reviewed
                    P&T committee procedures for defining and determining conflicts of
                    interest, and for managing members’ conflicts of interest through recusal.
                    With respect to CMS oversight, this evaluation examined how CMS
                    oversees sponsors’ compliance with the Federal requirement that at least
                    two members on each P&T committee be free of conflict.
                    In addition to reviewing oversight, we originally planned to verify that at
                    least two members on each P&T committee were free of conflict. We
                    collected the P&T committee data from CMS to determine whether
                    sponsors complied with Federal regulations. Had these data been
                    accurate, we could have used them to determine compliance. However,
                    our review of the P&T committee data revealed numerous discrepancies
                    and made us question their accuracy. Ultimately, we decided the
                    information was unreliable.
                    This study focused on Part D plans to which Federal P&T committee
                    conflict-of-interest requirements uniformly applied. As such, we did not
                    review PACE plans because they do not routinely use formularies and
                    therefore do not routinely have P&T committees.
                    Data Sources and Collection
                    We collected information on sponsor oversight through a survey of
                    P&T committees and a review of their policies. We collected information
                    on CMS oversight through structured interviews.
                    We collected information by P&T committee, rather than by sponsor,
                    because the policies and procedures governing P&T committee conflicts
                    of interest are generally unique to each P&T committee and not
                    necessarily unique to the sponsor. In fact, one sponsor may deal with
                    several different P&T committees, each governed by its own set of
                    policies and procedures related to conflicts of interest. This may occur
                    when a sponsor contracts with a PBM to maintain the P&T committee for
                    some, but not all, of its Part D plans. See Appendix A for an illustration of
                    how sponsors may have multiple P&T committees. A single
                    P&T committee maintained by a PBM also may serve multiple Part D
                    plans, either for one sponsor or multiple sponsors.
                    CMS Data. We obtained Part D information from CMS’s Health Plan
                    Management System (HPMS) for all 682 contracts with sponsors in 2010.
                    We removed two contracts because CMS terminated them midway

Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   10
                    through 2010. This resulted in a population of 680 contracts with
                    sponsors that were associated with 117 P&T committees.
                    Survey and Document Request. In January 2011, we conducted an online
                    survey of the 117 P&T committees to determine their procedures for
                    defining, determining, and managing conflicts by recusing members with
                    conflicts.
                    To direct our survey to the correct entity, we first identified which entity—
                    sponsor or PBM—maintained the plan’s P&T committee. Because CMS’s
                    data were unreliable, we contacted each entity listed in HPMS as
                    maintaining a P&T committee to verify that it did so. If the entity
                    indicated that the information was incorrect, we asked it to identify the
                    correct entity that maintained the P&T committee. We contacted the
                    second entity to confirm that it was correctly identified. We also
                    confirmed this information by sending a letter to all entities listed as
                    maintaining a P&T committee.
                    As part of the survey, we asked P&T committees to report the size of their
                    membership and whether members included employees of sponsors and
                    PBMs. We made one followup attempt by telephone. We received
                    113 complete surveys—a 97-percent response rate.
                    We requested supporting documents for key survey questions to confirm
                    how sponsors determine and manage P&T committee conflicts of interest.
                    This documentation included conflict-of-interest statements, conflict-of-
                    interest policies, and recusal policies. Two P&T committees did not
                    submit documentation; therefore, we removed them from our analysis of
                    survey questions that required survey documentation.
                    Structured Interviews. We conducted structured interviews with CMS
                    staff regarding its oversight of sponsor compliance with P&T committee
                    conflict-of-interest requirements and its oversight of sponsors’
                    formularies. We conducted these interviews between September 2010 and
                    September 2011.
                    Analysis
                    We analyzed the information we collected to determine the extent to which
                    conflicts of interest were defined, determined, and managed. We analyzed
                    the survey responses and extensively reviewed the submitted documents to
                    develop our findings. When making our determinations, we relied
                    primarily on the documentation, even when it conflicted with the survey
                    responses.
                    When analyzing conflict-of-interest definitions, we compared them to the
                    broader restriction in the Federal regulations. As previously stated, the


Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   11
                    regulations refer to conflicts of interest with sponsors and pharmaceutical
                    manufacturers. Federal law references only sponsors and plans.
                    We analyzed the P&T committee information reported to CMS and
                    ascertained that this information was unreliable. We determined the data
                    were unreliable by identifying internal inconsistencies in the data as well
                    as discrepancies with other data sources. We then analyzed the data to
                    determine the extent of the inaccuracies. We analyzed the number of
                    P&T committee members reported to CMS for each Part D plan to
                    determine the extent of discrepancies. We analyzed the information that
                    lists which entity maintained the P&T committee to determine the extent
                    of its accuracy.
                    We analyzed CMS interview responses to determine the extent to which
                    CMS: (1) reviewed reported P&T committee conflict-of-interest
                    information and (2) used any other means to oversee P&T committee
                    members’ conflicts.
                    Data Limitations
                    The document review we conducted accounted only for written policies.
                    It did not account for unwritten practices. For survey questions that did
                    not require supporting documentation, this report relies on self-reported
                    data.
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspection and Evaluation issued by the Council of the Inspectors General
                    on Integrity and Efficiency.




Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   12
                    FINDINGS
                    Most sponsors’ P&T committees had limited
                    definitions of conflicts of interest, which could prevent
                    them from identifying conflicts
                    To comply with Federal law and regulations, P&T committees must make
                    prescription drug formulary decisions based on scientific evidence and
                    standards of practice. One way that the regulations attempt to ensure that
                    this happens is to require that at least two P&T committee members be
                    free of conflict with sponsors and pharmaceutical manufacturers. In
                    addition, CMS suggests that financial interests in any entity that would
                    benefit from formulary decisions could constitute a conflict. Therefore, to
                    capture all possible conflicts, P&T committees’ understanding of what
                    constitutes a conflict of interest should include financial interests in
                    sponsors and pharmaceutical manufacturers and with other entities that
                    could benefit from formulary decisions. If P&T committee definitions do
                    not include these factors, committees may not be able to identify potential
                    conflicts that could compromise the independence of a P&T committee’s
                    formulary decisions.
                    Half of P&T committees’ definitions did not address conflicts
                    prohibited by Federal regulations
                    Fifty-three percent of P&T committees reported their definitions did not
                    include any financial interests with either sponsors or pharmaceutical
                    manufacturers as conflicts of interest. These committees’ conflict-of-
                    interest definitions failed to include at least one of the entities specified by
                    Federal regulation. Six percent of P&T committees reported their
                    definitions did not include any financial interests with both sponsors and
                    pharmaceutical manufacturers as conflicts, as specified by Federal
                    regulations.
                    Most P&T committees (52 percent) reported that their definitions did not
                    consider any members’ financial interests in sponsors to be conflicts of
                    interest. Sponsors are defined in both Federal law and regulations as
                    potential sources of conflict.
                    A much smaller percentage (7 percent) of P&T committees’ definitions
                    failed to consider any financial interests in pharmaceutical manufacturers
                    to be conflicts of interest.




Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   13
                    P&T committees’ definitions did not always address
                    relationships with other entities that could benefit from
                    formulary decisions
                    P&T committees did not always include relationships with PBMs—which
                    could benefit from formulary decisions—in their definitions of conflicts of
                    interest. Thirty-three percent of P&T committees reported that they did
                    not define any financial interests in PBMs as conflicts. P&T committees
                    did not always include relationships with PBMs, even when PBMs were
                    performing Part D functions. Of the 22 P&T committees maintained by
                    PBMs, more than two-thirds reported that they did not define any financial
                    interests in PBMs as conflicts.
                    Although regulations do not reference financial interests in PBMs as
                    possible conflicts of interest, in the preamble to the Final Rule, CMS states
                    that a conflict is any direct or indirect financial interest in any entity that
                    would benefit from formulary decisions. Because PBMs perform Part D
                    functions on behalf of sponsors, they can benefit from formulary decisions
                    in the same way that sponsors can benefit from formulary decisions. For
                    example, financial interests in the PBM that maintains the P&T committee
                    and negotiates price concessions on behalf of the sponsors could influence
                    a committee member to favor drugs made by pharmaceutical
                    manufacturers with which the PBM has negotiated an arrangement
                    advantageous to the PBM.
                    More than two-thirds of P&T committees’ definitions did not
                    address employment
                    Sixty-eight percent of P&T committees did not view employment by the
                    entity that maintains the committee as a potential source of conflict or
                    bias. Overall, 88 percent of P&T committees had such employees serving
                    as members. The percentage of employees serving on P&T committees
                    ranged from 4 to 97 percent, with a median of 38 percent.
                    Although regulations do not specify employment as a conflict,
                    P&T committees that do not address employment could be overlooking
                    potential conflicts among their P&T committee members. These
                    committees could be at risk of not having at least two members who are
                    independent and free of conflict, as required by law. They also could be at
                    risk of not appropriately managing conflicts of interest among employees.
                    For example, depending on their positions, certain employees serving on
                    P&T committees could be privy to information about drug selections that
                    are in the best interest of their employer. This could bias their committee
                    discussions and influence the way they vote on formulary decisions.
                    While employees may not introduce this bias intentionally to promote


Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   14
                    their own financial interests, they might do so to serve the best interests of
                    their employers.
                    Many sponsors’ P&T committees allowed members to
                    determine and manage their own conflicts of interest
                    Fifty-nine percent of sponsors’ P&T committees allowed committee
                    members to determine their own conflicts and manage them through
                    recusal. By relying on members to determine and manage their own
                    conflicts, sponsors’ P&T committees may not be able to ensure that
                    formulary decisions are based on scientific evidence and are not biased by
                    financial interests. Regulations do not require sponsors’ P&T committees
                    to have policies and procedures to ensure that committee member conflicts
                    are determined and managed objectively. However, relying on
                    P&T committee members to determine and manage their own conflicts
                    makes intentional misreporting easier and allows for unintentional
                    misreporting because of a misunderstanding or misapplication of
                    sponsors’ P&T committee policies.
                    Nearly two-thirds of P&T committees relied on members to
                    determine whether financial interests constituted conflicts
                    Overall, 65 percent of P&T committees relied on committee members to
                    determine whether their financial interests constituted conflicts of interest.
                    Eight percent of P&T committees had a conflict determination process that
                    designated members as the parties responsible for determining whether
                    their own financial interests should be considered conflicts. Another
                    57 percent, or 63 committees, did not have a process for reviewing
                    financial interests disclosed on conflict-of-interest statements and
                    determining whether they constitute conflicts of interest. Without an
                    explicit determination process, P&T committees effectively defaulted to
                    their members to determine whether they have conflicts.
                    Some P&T committees may not have established processes to determine
                    whether financial interests were conflicts because they did not require
                    members to disclose financial interests. Twenty-four percent of the
                    63 P&T committees that did not have a process for determining conflicts
                    did not collect any financial interest information from members. These
                    P&T committees’ disclosure forms did not require members to disclose
                    any financial interest information. The members were required only to
                    sign a form stating whether they had financial interests or conflicts of
                    interest. Members on these P&T committees were not asked to describe
                    the nature or value of their financial interests or to submit any supporting
                    information. P&T committees would need this information to make an
                    objective determination of whether financial interests constituted conflicts.


Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   15
                    More than three-quarters of P&T committees relied on members
                    to recuse themselves from discussions and votes
                    Seventy-nine percent of P&T committees relied on members to recuse
                    themselves from discussions or votes when they had a conflict of interest
                    related to a particular drug. CMS advises recusal from discussions and
                    votes if P&T committee members have a conflict. Specifically, 56 percent
                    of P&T committees had recusal policies that designated members as
                    responsible for recusing themselves from discussions or votes.
                    Additionally, 23 percent of P&T committees did not have recusal policies.
                    These P&T committees did not have a process to ensure that members
                    with conflicts did not discuss or vote on a particular drug that presented a
                    conflict. Essentially, these P&T committees defaulted to the conflicted
                    members to recuse themselves.
                    CMS does not adequately oversee sponsors’
                    P&T committee compliance with Federal
                    conflict-of-interest requirements
                    CMS does not monitor conflicts of interest on P&T committees or review
                    the P&T committee conflict-of-interest information that is required to be
                    reported. Had CMS tried to review the information, it would have found
                    the data unusable because of discrepancies. Also, during 2010, CMS did
                    not perform onsite audits to assess compliance with Federal
                    P&T committee conflict-of-interest requirements.
                    CMS does not review P&T committee conflict-of-interest
                    information
                    CMS staff reported that they do not look at the information that sponsors
                    and PBMs report about whether each P&T committee member is free of
                    conflict. Without reviewing this information, CMS cannot know whether
                    a minimum of two members on each P&T committee are free of conflict
                    with sponsors and pharmaceutical manufacturers, as required.
                    Additionally, during 2010, CMS did not have audit protocols to
                    specifically audit P&T committee member conflicts of interest. Similarly,
                    CMS did not have audit protocols to assess compliance with
                    P&T committee conflict-of-interest requirements as part of its sponsor
                    audits. In 2012, CMS added an optional review of P&T committee
                    documentation to determine compliance with Federal conflict-of-interest
                    requirements. As of August 2012, CMS reported that less than 10 percent
                    of its audits included these elements.
                    CMS does have audit protocols to review formulary management
                    activities to confirm they are being administered consistent with the
                    formulary as CMS approved it. During these audits, CMS reviews

Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   16
                    P&T committee meeting minutes and interviews sponsors, focusing on
                    formulary management activities, such as decisions about clinical
                    appropriateness and drug utilization. However, CMS does not make use
                    of these audit opportunities to review P&T committee member
                    conflict-of-interest statements. In addition, CMS staff reported that they
                    do not review meeting minutes to determine whether members are recused
                    from discussions or votes. CMS also reported that it does not ask
                    questions related to conflicts or recusal during interviews with sponsors.
                    Data discrepancies would prevent CMS from identifying with
                    certainty the members of each P&T committee
                    Had CMS attempted to review the reported P&T committee information, it
                    would have had problems using the information to assess whether
                    conflicts existed because of data discrepancies. Using these data, CMS
                    could not have identified members of P&T committees. Without
                    identifying the members on each P&T committee, CMS cannot tell
                    whether a minimum of two members are free of conflict.
                    Our review of the data uncovered discrepancies that would prevent CMS
                    from identifying with certainty the members of each P&T committee. We
                    found discrepancies such as duplicate names, similar names, different
                    suffixes or prefixes, and names listed in different order (e.g., first
                    name/last name and last name/first name). These discrepancies may have
                    been data entry errors, but it is impossible to know definitively. We also
                    found multiple data submissions for the same P&T committee. When
                    comparing these submissions, we found these same problems existed
                    across the committee membership information. In fact, 58 percent of
                    P&T committees with multiple submissions had discrepancies that would
                    make it difficult to ascertain committee membership.
                    Further, it would be difficult for CMS to determine whether it received all
                    of the conflict-of-interest information for all P&T committee members.
                    Using the reported data, CMS cannot always identify which entity should
                    be reporting P&T committee conflict-of-interest information. According
                    to our discussions with sponsors and PBMs to verify the data reported to
                    CMS, 9 percent of the 680 contracts with sponsors had incorrect entities
                    listed as maintaining the P&T committee. In addition, we found other
                    problems with the data. For example, even when the PBM listed as
                    maintaining the P&T committee was correct, the name of the PBM and
                    contact information were often outdated because of mergers and other
                    changes in the marketplace.




Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   17
                    CONCLUSION AND RECOMMENDATIONS
                    Federal law and regulations require Medicare Part D P&T committees to
                    make prescription drug formulary decisions based on scientific evidence
                    and standards of practice. Our findings reveal that both sponsors and
                    CMS conduct limited oversight of P&T committee conflicts of interest,
                    compromising their ability to ensure that financial interests do not
                    influence formulary decisions. Specifically, we found that without
                    direction and oversight from CMS, many sponsors’ P&T committees have
                    limited oversight of members’ conflicts of interest. Additionally, we found
                    that CMS does not adequately oversee compliance with the Federal
                    requirement that at least one physician and at least one pharmacist on each
                    committee be free of conflict.
                    Limited sponsor oversight does not necessarily indicate that financial
                    interests are influencing formulary decisions. However, it does expose
                    sponsors to that possibility. In health care, financial interests in the
                    pharmaceutical industry are common. In fact, there is widespread
                    evidence that financial interests and conflicts of interest exist between
                    pharmaceutical manufacturers and health care providers, and that these
                    relationships influence behavior.
                    Conflicts of interest jeopardize the integrity of professional judgment,
                    compromise the quality of patient care, and erode the public’s trust in
                    Federal health care. If conflicts of interest in the Part D program are
                    undetected or not managed, beneficiaries may receive inferior therapies
                    when safer or more effective therapies are available, limited Medicare
                    dollars may be wasted to pay for inappropriate treatment, and public
                    confidence in the Federal Government may be compromised.
                    To minimize the possibility that conflicts of interest influence formulary
                    decisions, we recommend that CMS improve its oversight of
                    P&T committee conflicts and set minimum standards for sponsor
                    oversight of committee conflicts of interest.
                    To address limitations in how P&T committee members’ conflicts are
                    defined, determined, and managed, we recommend that CMS:
                    Define PBMs as Entities That Could Benefit From Formulary
                    Decisions
                    P&T committee members may have conflicts of interest relative to PBMs,
                    but current regulation does not address this vulnerability. CMS suggests
                    in the preamble to the Final Rule that P&T committee members are not
                    free of conflict if they have any direct or indirect financial interest in any
                    entity that would benefit from decisions regarding plan formularies.
                    However, in regulation, CMS specifies only sponsors and pharmaceutical

Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   18
                    manufacturers and does not mention PBMs. Sponsors can delegate
                    formulary management responsibilities to PBMs; therefore, PBMs also
                    can benefit financially from plan formulary decisions because they can
                    retain a percentage of price concessions negotiated with pharmaceutical
                    manufacturers on behalf of sponsors.
                    CMS should define PBMs as entities that could be affected by drug
                    coverage decisions. CMS should require the P&T committee members,
                    who must be free of conflict with sponsors and pharmaceutical
                    manufacturers, to also be free of conflict with any PBM that manages a
                    sponsor’s prescription drug benefit. To implement this, CMS could seek
                    regulatory change or use existing regulatory provisions that address
                    contractual arrangements between sponsors and their contracted entities.
                    Establish Minimum Standards Requiring Sponsors To Ensure
                    That Safeguards Are Established To Prevent Improprieties
                    Related to Employment by the Entity That Maintains the
                    P&T Committee
                    Current CMS guidance does not address employment. CMS should
                    amend current guidance to stipulate that sponsors establish safeguards to
                    prevent any improprieties associated with being employed by the entity
                    that maintains the P&T committee from influencing committee decisions.
                    CMS could set minimum standards by publishing guidance or amending
                    the Medicare Prescription Drug Benefit Manual.
                    While CMS may not want to specify exactly what safeguards sponsors
                    should establish, it should require sponsors to ensure that these safeguards
                    specify how employee relationships will be managed. This would allow
                    sponsors the independence and flexibility granted to them by law. Entities
                    that maintain a P&T committee could address these safeguards in their
                    codes of conduct or ethics policies. When a sponsor contracts with a PBM
                    to maintain its P&T committees, the sponsor should expect the PBM to
                    have similar safeguards in place and should monitor the PBM to ensure
                    that it meets the minimum standards.
                    Establish Minimum Standards Requiring Sponsors To Ensure
                    That an Objective Process Is Used To Determine Whether
                    Disclosed Financial Interests Are Conflicts
                    In practice, many sponsors rely on members to determine their own
                    conflicts. CMS should require sponsors to use an objective process to
                    determine whether a disclosed financial interest constitutes a conflict of
                    interest. Current guidance only generally addresses disclosure of financial
                    interests and does not address conflict-of-interest determination. CMS



Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   19
                    could set minimum standards by publishing guidance or amending the
                    Medicare Prescription Drug Benefit Manual.
                    Sponsors could determine what type of objective process best suits their
                    business models. For example, a sponsor could direct a compliance
                    officer to identify whether financial interests are conflicts and then alert
                    the P&T committee chair that recusal is necessary. Establishing an
                    objective determination process would help ensure that P&T committee
                    members’ financial interests do not bias committee discussions or votes.
                    When a sponsor contracts with a PBM to maintain its P&T committees, it
                    should expect the PBM to have similar objective processes in place and
                    should monitor the PBM to ensure that it meets the requirement.
                    Regardless of the objective process established by sponsors, CMS should
                    direct them to require P&T committee members to disclose financial
                    interests on their conflict-of-interest statements. To facilitate an objective
                    determination of conflicts of interest, sponsors need financial interest
                    information from P&T committee members. Disclosed financial interests
                    should include all direct and indirect financial interests with any entity that
                    would benefit from decisions regarding plan formularies. P&T committee
                    members could disclose specific information about their financial
                    interests, such as the nature of the relationship and the value of the
                    financial interest.
                    Establish Minimum Standards Requiring Sponsors To Ensure
                    That an Objective Process Is Used To Manage Recusals
                    Because of Conflicts of Interest
                    CMS should require sponsors to use an objective process to manage
                    P&T committee members’ allowable conflicts. Current guidance only
                    generally addresses recusals. CMS could set minimum standards by
                    publishing guidance or amending the Medicare Prescription Drug Benefit
                    Manual.
                    As with establishing an objective process to determine conflicts, sponsors
                    could determine the type of objective process that best suits their business
                    model. However, CMS could tell sponsors that, at a minimum, they need
                    to designate an objective party, such as a compliance officer, to flag and
                    enforce the necessary recusals. By doing so, sponsors would ensure that
                    members with conflicts are recused from discussions or votes associated
                    with a particular drug and that they are not managing their own recusals.
                    When a sponsor contracts with a PBM to maintain its P&T committees, it
                    should expect the PBM to have similar objective processes in place and
                    should monitor the PBM to ensure that it meets the requirement.



Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   20
                    In addition, to address the lack of oversight of sponsors’ compliance with
                    Federal law and regulations regarding P&T committee conflicts of
                    interest, we recommend that CMS:
                    Oversee Compliance With Federal P&T Committee
                    Conflict-of-Interest Requirements and Guidance
                    CMS should oversee sponsors’ P&T committee conflict-of-interest
                    procedures to ensure that formulary decisions are based only on scientific
                    evidence and standards of practice. First, CMS should review reported
                    P&T committee conflict-of-interest information to ensure that all
                    committees have at least one practicing physician and at least one
                    practicing pharmacist who are free of conflicts with entities that would
                    benefit from formulary decisions. By reviewing the reported
                    P&T committee information, CMS also would be able to identify any
                    discrepancies in the data and ensure that they are usable and reliable.
                    CMS also should consider obtaining additional information to help it
                    oversee compliance. For example, CMS could collect conflict-of-interest
                    statements for each P&T committee member. This information could
                    enable CMS to ensure that sponsors are requesting this information from
                    their P&T committee members. Additionally, collecting basic details
                    about the nature of financial interests could enable CMS to question
                    whether certain financial interests could affect drug formulary decisions.
                    Second, CMS should broaden its audit protocols to include a review of
                    sponsors’ P&T committee conflict-of-interest determination and
                    management policies. CMS also could review meeting minutes or ask
                    questions related to recusal during audit interviews to determine whether
                    members are being recused. In 2012, CMS added to its audit protocol an
                    optional review of P&T committee membership lists to determine whether
                    a sponsor’s committee has met the Federal conflict-of-interest
                    requirements. This change helps to ensure that minimum standards are
                    met and that at least two members on each committee are free of conflict.
                    However, by reviewing other documents, CMS could assess whether
                    sponsors have policies and procedures in place to ensure that members
                    with conflicts are being recused.




Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   21
                    AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                    RESPONSE
                    CMS did not concur with our first and second recommendations,
                    concurred with part of our third and fourth recommendations, and
                    concurred with our fifth recommendation.
                    CMS maintained that it is not necessary to conduct additional
                    P&T committee conflict-of-interest oversight because current formulary
                    reviews and P&T committee audits appropriately protect beneficiaries
                    from any adverse effects of potential conflicts of interest. Specifically,
                    CMS noted that its formulary review process protects beneficiaries’ access
                    to prescription drugs and its audits review P&T committee documentation
                    related to identified formulary administration problems.
                    We assert that CMS should improve its P&T committee oversight and set
                    broad, minimum standards for sponsor oversight in guidance for several
                    reasons. We continue to note that CMS does not adequately oversee
                    compliance with P&T committee conflict-of-interest requirements. CMS
                    states that it can conduct P&T audits. However, as of August 2012, CMS
                    reviewed P&T committee information for less than 10 percent of audits.
                    Further, given the information collected in these audits, it seems unlikely
                    that CMS would detect situations in which a conflict of interest led a
                    committee to prefer one drug over another that treated the same condition.
                    In addition, based on current data, CMS cannot tell whether sponsors’
                    P&T committees have two members on each committee who are free of
                    conflict, as required by law. CMS oversight is especially important given
                    that we found that sponsor oversight of committee member conflicts is
                    limited.
                    If conflicts of interest among P&T committee members are not addressed,
                    beneficiaries may receive inferior therapies when safer or more effective
                    therapies are available, limited Medicare dollars may be wasted to pay for
                    inappropriate treatment, and public confidence in the Federal Government
                    may be undermined. In contrast, CMS asserts that conflicts of interest
                    would not disadvantage beneficiaries or the Federal Government because
                    it believes that formulary decisions influenced by conflicts would result in
                    higher premiums and the plan would be priced out of the marketplace.
                    This position assumes that beneficiaries select health insurance based only
                    on cost. This does not consider beneficiaries’ concerns about remaining
                    with their current health care team, access issues, or the opportunity cost
                    of having to select a new health insurance plan.
                    CMS noted that OIG did not identify any conflicts through our study. Our
                    study was not designed to identify conflicts and, as such, we did not find

Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   22
                    any. However, that does not mean conflicts do not exist. There is
                    widespread evidence that conflicts of interest are pervasive among the
                    pharmaceutical industry and health care practitioners and that financial
                    relationships may influence practitioners’ behavior.
                    In its comments, CMS indicated that the Physician Payment Sunshine Act
                    will result in information that may help sponsors determine conflicts of
                    interest. However, reported data will not contain information about
                    pharmaceutical manufacturer payments to pharmacists and, therefore, will
                    not help sponsors meet the requirement that at least one pharmacist on
                    each P&T committee be free of conflict.
                    CMS did not concur with our first recommendation, that it define PBMs as
                    entities that could benefit from formulary decisions. CMS asserted that its
                    formulary review process provides the appropriate protections from any
                    adverse effects of conflicts of interest. CMS noted that PBMs do have an
                    interest in formulary decisions because they negotiate price concessions
                    on behalf of sponsors as their subcontractors. However, CMS suggested
                    that, by virtue of this contractual relationship, PBMs will be constrained
                    by the same desire to be competitive as sponsors, forcing them to balance
                    both quality and costs in developing formularies.
                    It is precisely because PBMs have an interest in formulary decisions that
                    we continue to recommend that CMS include PBMs in the definition of
                    entities that could benefit from formulary decisions. The delegated
                    responsibility to negotiate price concessions means that PBMs have
                    financial interests in formulary development, yet those financial interests
                    may not be aligned with those of the sponsors that contracted with them.
                    Because their financial interests may not be aligned, PBMs may not be
                    constrained by the same competitive market forces as sponsors.
                    CMS did not concur with our second recommendation, that it establish
                    minimum standards requiring sponsors to prevent improprieties associated
                    with employment from influencing P&T committee decisions. CMS
                    stated that it is not directed in statute to address employment standards.
                    CMS further noted that as corporations, private drug plans maintain a
                    competitive edge by managing their employees, who should act in their
                    employers’ best interest.
                    We agree that employees of private health plans would likely act in the
                    best interest of their employers—interests that may not align with the
                    interests of the Part D program—which is why we continue to recommend
                    that CMS establish minimum standards requiring sponsors to address
                    employment. Minimum standards established by CMS allow sponsors
                    independence and flexibility to develop safeguards that best suit their
                    business models. As we noted, CMS could stipulate these minimum

Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   23
                    standards in guidance or in the Medicare Prescription Drug Benefit
                    Manual.
                    For our third and fourth recommendations, CMS concurred that sponsors
                    should ensure that an objective process is used to determine whether
                    disclosed financial interests are conflicts and manage recusals. However,
                    CMS did not concur that it should be responsible for establishing
                    minimum standards. CMS noted that it will carefully consider this
                    recommendation and evaluate the sufficiency of current evidence when
                    considering future rulemaking.
                    We believe that, to ensure prescription drug coverage decisions are not
                    based on financial interests, CMS should establish minimum standards
                    requiring sponsors to have objective processes to determine conflicts of
                    interest and manage recusals. Minimum standards from CMS allow
                    sponsors flexibility to determine what type of process best suits their
                    business models. CMS already has established minimum requirements for
                    sponsors regarding Part D formularies and P&T committee membership.
                    This recommendation continues this precedent. We also note that these
                    additional minimum standards can be established in guidance or in the
                    Medicare Prescription Drug Benefit Manual.
                    CMS concurred with our fifth recommendation, that it oversee compliance
                    with Federal P&T committee conflict-of-interest requirements. CMS
                    indicated that its P&T committee audit will be conducted when issues
                    identified during the formulary administration audit warrant additional
                    P&T committee audits. CMS also noted that it will consider updating its
                    annual “readiness checklist” to ensure that sponsors or their contracted
                    PBMs update P&T committee membership data in the Health Plan
                    Management System. Finally, CMS indicated that it will explore other
                    approaches for assessing compliance with P&T committee
                    conflict-of-interest requirements.
                    We made minor changes to the report based on CMS’s comments. For the
                    full text of CMS’s comments, see Appendix C.




Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   24
                       APPENDIX A
                       Potential Sponsor and Pharmacy and Therapeutics Committee
                       Relationships
                       Sponsors A, B, and C contract with a pharmacy benefit manager (PBM)
                       for Pharmacy & Therapeutics (P&T) committee functions for some or all
                       of their Part D plans.



                                                     Sponsor A          Sponsor B           Sponsor C




      P&T Committee A                                               P&T Committee B
       (maintained by                                                (maintained by
         Sponsor A)                                                      PBM)




Sponsor A’s     Sponsor A’s          Sponsor A’s       Sponsor A’s         Sponsor B’s       Sponsor B’s     Sponsor C’s
Part D Plan 1   Part D Plan 2        Part D Plan 3     Part D Plan 4       Part D Plan 1     Part D Plan 2   Part D Plan 1




   Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)           25
                    APPENDIX B
                    Pharmacy and Therapeutics Committee Member Disclosure
                    Form 57
                    Sponsors or pharmacy benefit managers must
                           Provide the names of the members of your organization’s Pharmacy
                           & Therapeutics committee. Indicate which members are practicing
                           physicians or practicing pharmacists. Further, indicate which
                           members are experts in the care of the elderly or disabled, and free
                           of any conflict of interest with your organization and pharmaceutical
                           manufacturers.




                    57
                      CMS, Medicare Prescriptions Drug Benefit: Solicitation for Applications for New
                    Prescription Drug Plans (PDP) Sponsors, 2011 Contract Year.

Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)    26
                              APPENDIXC
                              Agency Comments



       #!PVJCr.v.tl



   (      ~              DEPARTMENT OF HEALTH & HUMAN SERVICES                                      Centers for Medicare & Medicaid Services

       ~,~,...
                                                                                                     Office of the Administrator
                                                                                                     Washington , DC 20201




                      DATE:           FEB 0 7 2fi13
                      TO: 	          Daniel R. Levinson
                                     Inspector General
                                                          /S/
                      FROM: 	        M~n-Tav.e.n.net
                                     Acting Aam\nist.rator

                      SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "Gaps in Oversight of Conflicts
                                     oflnterest in Medicare Prescription Drug Decisions" (OEI-05-1 0-00450)


                      Thank you for the opportunity to review and comment on the OIG draft report " Gaps in
                      Oversight of Conflicts oflnterest in Medicare Prescription Drug Decisions." As part of this
                      review, OIG conducted an evaluation of Part D Plan Sponsors' Pharmacy and Therapeutic (P&T)
                      committee ' s conflicts of interest processes and the Centers for Medicare & Medicaid Services's
                      (CMS ' s) oversight ofP&T committees. OIG did not identify any actual conflicts of interest
                      during the course of this review.

                      The CMS believes the agency's current Part D formulary review provides appropriate
                      protections to beneficiaries from any adverse effects resulting from potential conflicts of interest.
                      The agency thoroughly reviews Part D formularies to prevent discrimination against Medicare
                      beneficiaries based on age, disease, or setting in which they receive care. The review process
                      ensures inclusion of a broad distribution of therapeutic categories and classes by using
                      reasonable benchmarks to ensure drug lists are robust. Further, CMS ensures that cost-sharing
                      levels and utilization management strategies are appropriate and non-discriminatory. CMS
                      identifies potential outliers at each review step for further investigation and requires reasonable
                      clinical justification when outliers appear to create beneficiary access problems.

                      The CMS devotes extensive resources to plan formulary oversight-and reserves the right to
                      reject them-to ensure compliance with industry best practices for development and
                      management and to ensure beneficiaries' access to clinically appropriate therapies. Therefore, if
                      a P&T committee were to create a formulary while operating under a potential conflict of
                      interest, because a discriminatory formulary would not be approved, the only potential impact
                      would be that the bid could be more expensive and, therefore, less competitive. Beneficiaries
                      could easily evaluate these higher premiums in the marketplace and choose a more efficient plan
                      to meet their needs. As a result, we could expect that any authentic conflicts of interest, given
                      our level of formulary review, would disadvantage the sponsor and not the beneficiary or
                      Medicare program.




Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-1 0-00450)                                          27
Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   28
Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   29
Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   30
Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   31
                    ACKNOWLEDGMENTS
                    This report was prepared under the direction of Ann Maxwell, Regional
                    Inspector General for Evaluation and Inspections in the Chicago regional
                    office; Thomas F. Komaniecki, Deputy Regional Inspector General; and
                    Laura Kordish, Deputy Regional Inspector General.
                    Meghan Kearns served as the team leader for this study, and Melissa
                    Baker served as lead analyst. Other principal Office of Evaluation and
                    Inspections staff from the Chicago regional office who contributed to the
                    report include Hilary Slover; central office staff who contributed include
                    Debra Roush and Rita Wurm.




Gaps in Oversight of Conflicts of Interest in Medicare Prescription Drug Decisions (OEI-05-10-00450)   32
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
